Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  COST AND PERFORMANCE OF 

MEDICARE’S 2005 CHEMOTHERAPY

   DEMONSTRATION PROJECT





                    Daniel R. Levinson

                     Inspector General 


                      August 2006

                     OEI-09-05-00171

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                     S U M M A R Y                                        



                  OBJECTIVE
                  To assess the cost and the overall performance of Medicare’s 2005
                  chemotherapy demonstration project.


                  BACKGROUND
                  On January 1, 2005, the Centers for Medicare & Medicaid Services
                  (CMS) initiated a 1-year Medicare “Demonstration of Improved Quality
                  of Care for Cancer Patients Undergoing Chemotherapy.” According to
                  CMS, the purpose of the demonstration was to “ . . . assess and provide
                  new support for the quality of care for cancer patients undergoing
                  chemotherapy. . . . ” CMS provided a $130 allowance each time a
                  chemotherapy practitioner reported to Medicare, via the claims system,
                  an assessment of a patient’s levels of nausea and vomiting, pain, and
                  fatigue—three conditions commonly experienced as symptoms of cancer
                  or side effects of cancer treatment. Beneficiaries were responsible for
                  the usual 20-percent coinsurance ($26 in this case) each time the codes
                  were billed. CMS estimated that Medicare and beneficiary
                  expenditures for the demonstration would total $300 million. The
                  demonstration has continued in 2006 in a significantly modified form.

                  On September 8, 2005, the Office of Inspector General provided Senator
                  Charles E. Grassley, per his request, a preliminary assessment of the
                  demonstration’s costs and the adequacy of its data collection methods.
                  We estimated that Medicare and its beneficiaries would pay
                  $270 million for the demonstration in 2005 and noted that
                  approximately 3 percent of demonstration payments were for services
                  that did not meet program rules. We also reported that participants
                  administered the demonstration assessments inconsistently and that
                  CMS was not collecting information on the interventions used to
                  manage patients’ symptoms. Finally, we noted that the demonstration
                  allowance was disproportionate to the amount of effort involved on the
                  part of the practitioners and that assessing symptoms was already part
                  of routine cancer care.

                  To evaluate the cost of the demonstration, we analyzed demonstration
                  claims received by Medicare through the end of 2005. To produce our
                  overall assessment of the demonstration project, we conducted
                  interviews with CMS staff and reviewed e-mails, meeting notes, and
                  other workpapers CMS sent in response to our request for the entire
                  project file and any supplemental documents related to the

OEI-09-05-00171   M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T       i
E X E C U T I V E                        S U           M M A R Y


                   demonstration. We also interviewed staff at four oncology practices to
                   learn how they implemented the demonstration.


                   FINDINGS
                   Medicare and its beneficiaries will spend approximately $275 million
                   on the 2005 chemotherapy demonstration. Medicare is on track to
                   allow approximately $275 million for the demonstration; beneficiary
                   liability will total approximately $55 million. Approximately 90 percent
                   of eligible practitioners took part in the demonstration, and 85 percent
                   billed the demonstration codes at least half the time. The median
                   amount allowed per physician was approximately $23,000, but the top
                   10 billers were allowed more than $270,000 each.
                   Seven percent of demonstration claims did not comply with
                   program rules or were paid incorrectly, resulting in $17 million in net
                   overpayments. Claims that Medicare carriers paid in error included
                   duplicate billings, paying for the demonstration without concurrent
                   chemotherapy, and paying when the beneficiary did not have a cancer
                   diagnosis.
                   CMS did not sufficiently define the parameters of the demonstration,
                   leading to inconsistent data collection and incomplete and
                   unreliable data. Because CMS did not mandate a specific approach to
                   collecting the demonstration data, oncology practices implemented
                   inconsistent data collection procedures. We identified numerous
                   anomalies and gaps in the data and collection methods that
                   demonstrate the unreliability and undermine the usefulness of the data.


                   CONCLUSION
                   We previously reported that physicians who participated in the
                   demonstration used inconsistent methods and timeframes to assess
                   beneficiaries’ symptoms. Our analysis of a full year of demonstration
                   data revealed numerous inconsistencies and anomalies that raise
                   further issues concerning the integrity of the data. Based on these
                   concerns, we conclude that the demonstration data are unreliable.




 OEI-09-05-00171   M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   ii
Δ   T A B L E          O F           C O N T E N T S                             




         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 7

                   Demonstration to cost $275 million . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                   Inappropriate payments total $17 million . . . . . . . . . . . . . . . . . . . . 9 


                   Demonstration data inconsistent and unreliable . . . . . . . . . . . . . 10 



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

Δ   I N T R O D U C T I O N                                                     



                  OBJECTIVE
                  To assess the cost and the overall performance of Medicare’s 2005
                  chemotherapy demonstration project.


                  BACKGROUND
                  2005 Chemotherapy Demonstration Project
                  On January 1, 2005, the Centers for Medicare & Medicaid Services
                  (CMS) initiated a 1-year Medicare “Demonstration of Improved Quality
                  of Care for Cancer Patients Undergoing Chemotherapy.” CMS first
                  publicly announced the demonstration in a November 15, 2004, final
                  rule that implemented a revised payment methodology for drugs, which
                  was mandated by the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (commonly known as the Medicare
                  Modernization Act).1
                  CMS cites section 402(a)(1)(B) of the Social Security Act Amendments of
                  1967 (the Amendments) as the authority under which the
                  demonstration was operated. This section of the Amendments permits
                  the Secretary of the Department of Health and Human Services to
                  conduct demonstrations “ . . . to determine whether payments for
                  services other than those for which payment may be made under
                  [Medicare] (and which are incidental to services for which payment may
                  be made under [Medicare]) would, in the judgment of the Secretary,
                  result in more economical provision and more effective utilization of
                  services for which payment may be made. . . . ” According to CMS, the
                  purpose of the demonstration project was to “ . . . assess and provide
                  new support for the quality of care for cancer patients undergoing
                  chemotherapy. . . . ”2
                  Under the demonstration, CMS provided a $130 allowance each time a
                  chemotherapy practitioner reported to Medicare an assessment of a
                  patient’s levels of nausea and vomiting, pain, and fatigue—three
                  conditions commonly experienced as symptoms of cancer or side effects
                  of cancer treatment. To participate in the demonstration, physicians

                      1 69 FR 66236.
                      2 CMS. “Fact Sheet: Demonstration of Improved Quality of Care for Cancer Patients
                  Undergoing Chemotherapy.” November 1, 2004. Available online at
                  http://www.cms.hhs.gov/media/press/release.asp?Counter=1245. Accessed on
                  August 26, 2005.



OEI-09-05-00171   M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   1
I N T R O D        U C T             I O N


                    submitted claims to Medicare that included special billing codes that
                    CMS created for the demonstration.3 These codes described, on a
                    four-point scale (“not at all,” “a little,” “quite a bit,” or “very much”), the
                    degree to which the beneficiary had been affected by the three
                    conditions.4 The demonstration required no formal enrollment;
                    however, it was limited to physicians practicing in an office setting and
                    to beneficiary visits at which the physician administered chemotherapy
                    via infusion or push for a cancer diagnosis.5
                    CMS estimated that Medicare and its beneficiaries would spend
                    $300 million for the demonstration in 2005. CMS did not waive the
                    Medicare Part B coinsurance requirement for this demonstration.
                    Therefore, beneficiaries were liable for the usual 20-percent coinsurance
                    ($26 in this case) each time their physician billed the demonstration
                    codes.

                    CMS regularly carries out demonstration and other research projects,
                    but the chemotherapy demonstration was much larger in scope than is
                    typical. The $300 million in estimated expenditures greatly exceeds the
                    budgets of other CMS research projects; the next most expensive
                    research project listed in CMS’s Active Projects Report is a $60 million
                    project with a performance period of 8 years.6 Also, while
                    demonstration projects usually are limited geographically to a small
                    number of sites, the 2005 chemotherapy demonstration was open to all
                    physicians and beneficiaries nationwide.




                      3 Although nonphysician practitioners were eligible to participate in the demonstration,

                    physicians submitted more than 99 percent of paid demonstration claims. Throughout this
                    report we use the term “physician” to mean any provider of Medicare Part B services.
                       4 CMS based the demonstration’s four-point scale on the Rotterdam Symptom Checklist,
                    an instrument developed as a patient self-assessment tool for measuring the quality of life
                    of cancer patients. A discussion of the Rotterdam scale and how it should be used can be
                    found in Northern Centre for Healthcare Research, University of Groningen, The
                    Netherlands, “Measuring the Quality of Life of Cancer Patients with the Rotterdam
                    Symptom Checklist (RCSL): A Manual.” 1996.
                       5 In infusion chemotherapy, the physician dilutes the chemotherapy drug in a bag of fluid
                    and then administers this solution into a vein over a specified period of time. In the push
                    technique, the physician uses a syringe to administer the chemotherapy drug directly into a
                    vein.
                        6 The Active Project Report inventories research, demonstration, and evaluation projects
                    undertaken by CMS staff or by external entities with CMS support.



 OEI-09-05-00171    M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   2
I N T R O D        U C T             I O N


                    Pursuant to CMS Change Request7 (CR) 3670, dated December 30,
                    2004, demonstration claims were payable only if the following
                    conditions were met:

                            • 	 The physician submitted at least one code each for
                                nausea/vomiting, pain, and fatigue. (If the physician submitted
                                more than one code for a symptom category, carriers were
                                instructed to allow only the highest-level code.)

                            • 	 The physician billed the demonstration codes for the same date
                                of service as an allowed code for chemotherapy via infusion or
                                push.

                            • 	 The date of service of the demonstration codes (and, therefore,
                                the chemotherapy administration code) was in 2005.

                            • 	 The place of service referenced for both the demonstration codes
                                and the chemotherapy administration was “office.”

                            • 	 The diagnosis code reported and referenced was for cancer.

                    According to CMS, no further official instructions were provided to
                    carriers about the demonstration.

                    CMS has contracted with Mathematica Policy Research, a professional
                    evaluation firm, to analyze the demonstration data. According to CMS,
                    beneficiaries at 80 percent of demonstration assessments reported
                    having no nausea/vomiting and those at 70 percent reported having no
                    pain. Fatigue was more variable, with beneficiaries at approximately
                    30 percent of assessments reporting none, at 40 percent a little, at 20
                    percent quite a bit, and at the rest very much. Because the levels of
                    nausea/vomiting and pain reported were consistently low, the contract
                    project officer stated that CMS will focus on beneficiaries’ reported
                    levels of fatigue in further analyses. Among other things, CMS plans to
                    correlate the demonstration data with other claims data, such as
                    hospital admissions and emergency department visits.
                    2006 Demonstration Project
                    In a final rule dated November 21, 2005, CMS announced that the
                    demonstration would continue in 2006 in a revised and less costly
                    version.8 While both versions collect data via the submission of special
                    billing codes, the codes for the 2006 demonstration must be submitted

                        7 CMS uses Change Requests to instruct carriers to implement Medicare policy changes.
                        8 70 FR 70272.




 OEI-09-05-00171    M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   3
I N T R O D        U C T             I O N


                    with particular evaluation and management (E & M) visits, not with
                    chemotherapy administration. The 2006 demonstration requires that
                    participants (1) submit special codes that correspond to the reason for
                    the E & M visit, (2) indicate whether the participant is following clinical
                    guidelines, and (3) describe the current disease state. Medicare will
                    allow $23 per encounter, and the usual Part B coinsurance requirement
                    applies, meaning beneficiaries are liable for $4.60 per encounter.
                    Participation in the 2006 demonstration is limited to hematologists,
                    oncologists, hematologist/oncologists, and gynecological oncologists, and
                    participants may only bill the demonstration for beneficiaries who have
                    specific cancer diagnoses that appear on a list enumerated by CMS.
                    The participant (or staff) provides all information used to bill the 2006
                    demonstration; other than the physician’s assessment of the current
                    disease state, no beneficiary data are collected.
                    Previous Work
                    On August 12, 2005, Senator Charles E. Grassley, Chairman of the
                    Senate Committee on Finance, sent a letter to Inspector General
                    Daniel R. Levinson expressing concerns about the cost of the
                    chemotherapy demonstration project and whether the data CMS was
                    collecting would contribute to the goal of improving care for cancer
                    patients. Senator Grassley requested that the Office of Inspector
                    General (OIG) provide an assessment of the cost of the demonstration
                    and the adequacy of its data collection methods.

                    OIG provided an interim assessment to Senator Grassley on
                    September 8, 2005.9 In that assessment, we estimated that Medicare
                    and its beneficiaries would pay approximately $270 million to
                    physicians and that two-thirds of eligible physicians would participate.
                    Some participants had received large payments under the
                    demonstration—as much as $320,000 in the first 6 months of the
                    demonstration in one case. Approximately 3 percent of the
                    demonstration claims did not meet the requirements of CR 3670,
                    resulting in $3.6 million in inappropriate expenditures. We also
                    expressed concerns about the reliability and usefulness of the
                    demonstration data because of inconsistency in the ways participants
                    administered the demonstration assessments and because CMS was not
                    collecting information on the interventions physicians used to manage


                        9 The letter is available on the Web site of the Senate Committee on Finance at
                    http://finance.senate.gov/press/Gpress/2005/prg101305lett.pdf.



 OEI-09-05-00171    M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   4
I N T R O D        U C T             I O N


                    patients’ symptoms. Finally, we noted that the demonstration
                    allowance was disproportionate to the amount of effort involved on the
                    part of the participant and that assessing symptoms was already part of
                    routine cancer care.

                    In its January 2006 report to Congress, the Medicare Payment Advisory
                    Commission (MedPAC) questioned the demonstration’s validity and
                    methodology. MedPAC expressed concern that the demonstration:

                            • 	 did not have appropriate controls,

                            • 	 was announced and implemented without any period for
                                comments by clinicians and researchers,

                            • 	 did not impose a uniform data collection process,

                            • 	 did not gather data over a consistent timeframe, and

                            • 	 did not collect data on interventions used to alleviate symptoms.

                    MedPAC also reported that while all oncology practices it visited (in five
                    States) were participating in the demonstration, most oncologists did
                    not believe it would lead to quality improvements for patients or
                    produce any useful research findings. MedPAC concluded that the
                    demonstration was designed to increase payments to oncologists and
                    stated in a recommendation to Congress that “ . . . [t]he Secretary
                    should use his demonstration authority to test innovations in the
                    delivery and quality of health care. Demonstrations should not be used
                    as a mechanism to increase payments. . . .”10


                    METHODOLOGY
                    To evaluate the cost of the demonstration and its financial impact on
                    Medicare and its beneficiaries, we analyzed demonstration claims
                    received through the end of 2005. These data, which we received in
                    February 2006, represent approximately 87 percent of the services
                    rendered in 2005. Because Medicare processes claims submitted up to
                    1 year after the year in which services are rendered, complete data on
                    the demonstration will not be available before December 31, 2006.




                        10 Medicare Payment Advisory Commission. "Report to the Congress: Effects of
                    Medicare Payment Changes on Oncology Services.” January 2006.



 OEI-09-05-00171    M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   5
I N T R O D        U C T             I O N


                    We combined the qualitative data we collected for our September
                    interim report with data from additional sources to produce our overall
                    assessment of the demonstration project. Previously, we had visited
                    four oncology practices that participated in the demonstration and
                    interviewed staff at each about the methods they used to collect the
                    data. We also interviewed cancer researchers and spoke with CMS staff
                    about the project. For this report, we conducted additional interviews
                    with CMS staff and analyzed the 2005 claims data to identify patterns
                    and issues that warrant further evaluation. We also reviewed work
                    papers that CMS sent in response to our request for the entire project
                    file and any supplemental documents related to the demonstration. The
                    work papers contained internal e-mails, meeting notes, and other work
                    papers from the development and implementation of the demonstration,
                    as well as publicly released information about the demonstration.




 OEI-09-05-00171    M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   6
          Δ           F I N D I N G S

                      Medicare and its beneficiaries will spend                Assuming that the rate of claims
                       approximately $275 million on the 2005                  submission in the fourth quarter of
                                                                               2005 is consistent with that of the
                                chemotherapy demonstration
                                                                               fourth quarter of prior years,
                                         Medicare will allow approximately $275 million for the 2005
                                         chemotherapy demonstration.11 Because beneficiaries are responsible
                                         for 20-percent coinsurance on demonstration claims, beneficiary liability
                                         for the demonstration project will total approximately $55 million.

                                         Participation in the demonstration was high: approximately 90 percent
                                         of eligible physicians took part. Based on a chi-square test, physician
                                         practices that had 11 or more beneficiaries receiving chemotherapy for a
                                                                                       cancer diagnosis were more
        FIGURE 1:                                                                      likely to participate than
    Percentage of
                                                               Never                   those with fewer eligible
eligible physicians                              Always
    who billed the
                                                                10%
                                                                       Less            patients. Approximately
                                                  11%
    demonstration                                                    than half         11 percent of eligible
  codes at a given                                                      5%
                                                                                       physicians billed and were
        frequency
                                                                                       paid for the demonstration
(e.g, 11 percent of
eligible physicians                                                                    codes at every eligible
 always billed the                                                                     chemotherapy visit, and
    demonstration                                                                      85 percent billed the
            codes)
                                                                                       demonstration codes at
                                                                                       least half the time. (See
                                                        At least                       Figure 1.) Overall,
                                                          half                         Medicare paid for a
                                                          74%
                                                                                       demonstration assessment
                                                                                       at 88 percent of eligible
                                                                                       chemotherapy visits.
                         Source: OIG analysis of Medicare claims data, 2006.



                                         The demonstration provided substantial reimbursement to some physicians
                                         Approximately 7,500 physicians participated in the chemotherapy
                                         demonstration. The median amount allowed per physician was
                                         approximately $23,000; however, some physicians were allowed

                                            11 Medicare processes claims submitted up to 1 year after the end of the year in which
                                         the service was rendered. As of December 31, 2005, Medicare carriers had allowed
                                         1.8 million assessments performed under the demonstration project, totaling $239 million in
                                         Medicare and beneficiary payments. CMS projects that spending on the demonstration will
                                         total $255 million based on claims received through July 31, 2006.



                OEI-09-05-00171          M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   7
 F    I N D I N G                             S


                                     significantly more than the median. Figure 2 shows the distribution of
                                     demonstration payments to individual physicians. Medicare allowed
                                     more than $100,000 each for 308 individual physicians, and the top 10
                                     billers were allowed more than $270,000 each. The top biller, an
                                     oncologist in Florida, was allowed $625,603 for the demonstration codes.
                                     The physician with the second-highest allowed amount for the
                                     demonstration, an oncologist in Kansas, was allowed $507,563. These
                                     high billers represent practices that performed substantial amounts of
                                     push and infusion chemotherapy and, therefore, had many
                                     opportunities to bill for the demonstration.

      FIGURE 2:
Distribution of                                    3,000
demonstration
                                                             2,535
     allowances                                    2,500
                             Number of providers




                                                                                                           1,958
                                                   2,000


                                                                                    1,455
                                                   1,500                                                                          1,310


                                                   1,000


                                                    500
                                                                                                                                              275
                                                                                                                                                             33
                                                      0
                                                           Less than            $10,000 to             $25,000 to             $50,000 to   $100,000 to   $200,000 or
                                                            $10,000              $24,999                $49,999                $99,999      $199,999        more
                                                                            Total allowed for demonstration codes


                        Source: OIG analysis of Medicare claims data, 2006.


                                     On average, participants in the demonstration were allowed $529 per
                                     patient; for some, the amount was much higher. An oncologist in
                                     California had the highest mean allowed amount per patient, $5,214, of
                                     which the patient was responsible for $1,043. This oncologist typically
                                     saw patients daily for 2 weeks, billing the demonstration codes each
                                     time. His patients then had 2 weeks off chemotherapy before beginning
                                     the cycle again. This oncologist was also among the top
                                     10 billers overall and was allowed a total of $443,170 for the
                                     demonstration codes.




      OEI-09-05-00171                M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T                                   8
F    I N D I N G                 S           




     Seven percent of demonstration claims                      As shown in Table 1, 5.3 percent of the
    did not comply with demonstration rules                     assessments allowed under the
                                                                demonstration did not meet one or more
        or were paid incorrectly, resulting in
                                                                of the requirements of CR 3670,
     almost $17 million in net overpayments
                                                                resulting in $12 million in
                               inappropriate allowances. According to claims data, in 62 percent of
                               noncompliant assessments, beneficiaries received chemotherapy for
                               conditions other than cancer.12 In 46 percent, no push or infusion
                               chemotherapy administration code was allowed on the same day as the
                               demonstration codes. Medicare also paid for a relatively small number
                               of assessments for which carriers allowed codes related to only one or
                               two symptoms, instead of the required three, and assessments that took
                               place in a setting other than the physician’s office.

                         Table 1: Demonstration Payment Errors

                         Type of Error                                    Number                Percentage                  Allowed Amount
                         Noncompliance*                                     94,801                          5.3%               $12,061,947
                          - No cancer diagnosis                             58,891                          3.3%                $7,700,901
                          - No chemotherapy                                 43,996                          2.4%                $5,703,925
                          - Less than 3 codes                                  8,681                        0.5%                  $667,499
                          - Not in office                                         116                    0.01%                     $14,950
                         Incorrect Amount                                   41,758                          2.3%                $4,936,708
                          - Duplicates                                      37,397                          2.1%                $4,797,354
                          - Multiple units                                        556                    0.03%                    $161,847
                          - Uncertain reason                                   3,805                        0.2%                  ($22,493)
                         Overlapping                                        (3,518)                      (0.2%)                  ($208,789)
                         Total                                            133,041                           7.4%              $16,789,865**
                       *Numbers in this subcategory sum to more than the subtotal because some demonstration 

                       assessments did not comply with more than one requirement. 


                       **Total does not equal sum of subtotals due to rounding. 

                       Source: OIG analysis of Medicare claims data, 2006. 


                               Medicare allowed too great or too small an amount for 2.3 percent of
                               demonstration assessments, yielding an additional $4.9 million in net
                               overpayments. These mostly consisted of duplicate claims for one or


                                  12 CMS did not provide a list of diagnosis codes that defined a “cancer patient” for the
                               2005 demonstration. For this analysis, we considered a beneficiary a “cancer patient” if he
                               or she had any diagnosis in the “Cancer (Neoplasm, by site, malignant)” or “Carcinoma”
                               sections of the “International Classification of Diseases, 9th Revision, Clinical Modification,
                               Volume 2” listed on any claim for chemotherapy administration with a service date in 2005.



     OEI-09-05-00171           M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T                     9
F   I N D I N G        S


                      more of the demonstration codes. In some cases, participants obtained
                      excess reimbursement—$5,936.40 for a single demonstration
                      assessment in one case—by entering multiple units for one or more of
                      the demonstration codes associated with a single date of service. We
                      were unable to determine the reason for the miscalculations in the
                      remaining cases, but most involved apparent Medicare underpayments.
                      One carrier accounted for approximately 87 percent of these
                      unexplained payment reductions, and the remainder was almost
                      entirely confined to three additional carriers.



     CMS did not sufficiently define the parameters             CMS did not mandate a
      of the demonstration, leading to inconsistent             specific approach to collecting
                                                                the demonstration data.
                data collection and incomplete and
                                                                Consequently, as we reported
                                     unreliable data
                                                                in our September 2005 letter
                      to Senator Grassley, oncology practices implemented different
                      procedures for collecting the data. Reviewing the full year’s data has
                      not allayed our previous concerns and has provided further evidence
                      that the data are unreliable.
                      Prior concerns revisited
                      In our September letter, we expressed concern that participants in the
                      demonstration were not using consistent methods to administer the
                      assessments. Some of the practices we visited were asking patients
                      about their symptoms during the past week, but others reported the
                      data based on how the patients were feeling on the day of
                      chemotherapy. This could introduce considerable measurement error
                      into the data CMS is collecting. For example, one nurse told us if a
                      patient vomited several times in the last week, but was feeling fine on
                      the day of the assessment, she would report the lowest level of
                      nausea/vomiting. Based on the same information, another practitioner
                      could legitimately report the highest level of nausea/vomiting, based on
                      the frequency of the patient’s symptoms during the past week.

                      Furthermore, while nurses in the practices we visited asked patients
                      directly about their experiences and then interpreted them on the
                      four-point scale, some national oncology associations had recommended
                      that their members instead have patients fill out self-assessment forms
                      and use those to bill the demonstration codes. (CMS had instructed
                      that participants or qualified staff members perform the assessments.)
                      Because practitioners used different methods to gather demonstration

    OEI-09-05-00171   M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   10
F   I N D I N G        S


                      data, the reliability of the data was further compromised. Studies have
                      shown that research subjects consistently offer more positive health
                      assessments to interviewers than to paper questionnaires.13
                      Our analysis of the full year’s data reinforces our concerns about the
                      timeframes for which participants assessed their patients under the
                      demonstration. As mentioned previously, CMS indicated in CR 3670
                      that the symptoms were to be assessed over the past week. However,
                      approximately 32 percent of the symptom assessments occurred less
                      than 1 week after the previous chemotherapy administration, meaning
                      that certain days would be “in the last week” for more than one
                      assessment. CMS did not instruct participants on how to report
                      symptoms in these situations and indicated that carriers should pay the
                      claims. Based on our visits to clinics, beneficiaries at these assessments
                      probably were asked about their symptoms since their last visit or on
                      the day of the current visit, not over the last week, raising further
                      questions about the consistency of data collection in the demonstration.

                      CMS did not require participants to document demonstration
                      assessments and their results in the patient’s medical record.
                      Therefore, CMS cannot verify the accuracy of the data. Given that
                      participants did not generally submit demonstration claims
                      immediately after performing an assessment (the median delay was
                      approximately 9 days), not documenting the services could present a
                      significant data integrity concern. This concern is heightened for the
                      16 percent of demonstration claims submitted separately from the
                      related chemotherapy administration—approximately 31 days later, on
                      average. Although the practices we visited generally documented their
                      patients’ symptoms, some assessments were not documented. In the
                      absence of documentation, it is unclear how the participant would have
                      ensured the submitted codes accurately reflected their patients’
                      symptoms.

                      Lastly, as discussed in the September 8 letter to Senator Grassley, CMS
                      failed to collect information about the interventions physicians use to
                      address nausea/vomiting, pain, and fatigue. The oncologists and


                        13 Hochstim, J.R., “A Critical Comparison of Three Stages of Collecting Data From
                      Households.” Journal of the American Statistical Association, Volume 62, 976-989, 1967;”
                      and Biemer, P.P., “Health Insurance Finance Agency Evaluation—Unpublished Data.”
                      Research Triangle Institute, 1997, as cited in Dillman, Don, Mail and Internet Surveys:
                      The Tailored Design Method, 2000.



    OEI-09-05-00171   M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   11
F   I N D I N G        S


                      researchers to whom we spoke suggested that omitting this information
                      would limit the usefulness of the demonstration data. The American
                      Society of Clinical Oncology has expressed similar concerns.
                      New concerns surface
                      The demonstration focused specifically on the symptoms of cancer
                      patients, but the demonstration data may include the experiences of
                      patients who received chemotherapy for other conditions. CMS
                      specified in CR 3670 that, to be eligible for payment, the demonstration
                      codes had to point to a cancer diagnosis. However, CMS did not define a
                      list of valid diagnosis codes for the demonstration, leaving the carriers
                      to create their own lists. According to our analysis, these lists were not
                      consistent. For example, several of the larger carriers allowed no
                      demonstration claims with a diagnosis code corresponding to a
                      chemotherapy encounter (which does not specify the condition for which
                      chemotherapy is being administered), while others allowed up to
                      6 percent with this diagnosis and 5 smaller carriers allowed more than
                      15 percent.

                      According to CMS, the demonstration focused on measuring outcomes in
                      patients undergoing chemotherapy, but 8 percent of the allowed
                      demonstration assessments were conducted on the first day of a course
                      of treatment.14 Although data from these assessments could serve as a
                      baseline measurement for each patient, the data could not be considered
                      an assessment of the symptoms associated with chemotherapy because,
                      on the first day of treatment, the beneficiary has not yet been given any
                      chemotherapy. CMS has not indicated that “first-day” demonstration
                      data will be treated any differently than data gathered during a course
                      of treatment.




                         14 We considered an assessment to be on the first day of a course of treatment if it
                      occurred after at least a 60-day break in chemotherapy billings. Since we only had 2005
                      data available, we only looked at assessments that occurred on March 1 or later, to account
                      for chemotherapy that may have taken place at the end of 2004.



    OEI-09-05-00171   M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   12
F   I N D I N G        S
Δ       C O N C L U S I O N                                            



                      We previously reported that physicians who participated in the
                      demonstration used inconsistent methods and timeframes to assess
                      beneficiaries’ symptoms. Our analysis of a full year of demonstration
                      data revealed numerous inconsistencies and anomalies that raise
                      further issues concerning the integrity of the data. Based on these
                      concerns, we conclude that the demonstration data are unreliable.




    OEI-09-05-00171   M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T   13
Δ   A C K N O W L E D G M E N T S                                                                              




                  This report was prepared under the direction of Paul A. Gottlober,
                  Regional Inspector General for Evaluation and Inspections in the
                  San Francisco regional office, and Deborah Harvey, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Scott Hutchison, Project Leader
                  Steven Zerebecki, Program Analyst

                  Rob Gibbons, Technical Support

                  Scott Horning, Technical Support

                  Doris Jackson, Program Specialist

                  Tricia Davis, Director, Medicare Branch




OEI-09-05-00171   M E D I C A R E ’ S 2 0 0 5 C H E M O T H E R A P Y D E M O N S T R AT I O N P R O J E C T       14
